                                             OFFICE OF INSPECTOR GENERAL



                  	
            To:             Aaron Williams, Director
                            Carrie Hessler-Radelet, Deputy Director
                            Stacy Rhodes, Chief of Staff/Chief of Operations
                            Joseph Hepp, Chief Financial Officer
                            Cathryn Thorup, Director, OSIRP
                            Daljit Bains, Chief Compliance Officer

           From:	Kathy A. Buller, Inspector General

           Date:	February 14, 2012

           Subject:	Final Report on the Audit of the Peace Corps' Budget Formulation
                    Process (IG-12-02-A)

           Transmitted for your information is our final report on the Audit of the Peace Corps'
           Budget Formulation Process.

           Management concurred with 11 of 12 recommendations. All recommendations will
           remain open pending confirmation from the chief compliance officer that the
           documentation identified in management's response has been received. In its response,
           management described actions it is taking or intends to take to address the issues that
           prompted each of our recommendations. We wish to note that in closing
           recommendations, we are not certifying that the agency has taken these actions or that we
           have reviewed their effect. Certifying compliance and verifying effectiveness are
           management's responsibilities.

           Our comments, which are in the report as Appendix G, address these matters. Please
           respond with documentation to close the open recommendations in accordance with the
           estimated completion dates listed in the agency's response.

           You may address questions regarding follow-up or documentation to Assistant Inspector
           General for Audit Bradley Grubb at 202.692.2904 or Jeffrey Lee at 202.692.2919.

           Please accept our thanks for your cooperation and assistance in our review.

           Attachment

           cc:	Elisa Montoya, White House Liaison/Senior Advisor to the Director
               Bill Rubin, General Counsel
               Dorine Andrews, Chief Information Officer
               Ed Hobson, Associate Director for Safety and Security



                                             	
Paul D. Coverdell Peace Corps Headquarters       1111 20th Street, NW • Washington, DC 20526 www.peacecorps.gov I 800.424.8580
Esther Benjamin, Associate Director, Global Operations
Jules Delaune, Associate Director, Volunteer Support
Lisa Bilder, Chief Acquisition Officer
Earl Yates, Acting Associate Director for Volunteer Recruitment and Selection
Garry Stanberry, Acting Associate Director for Management
Brenda Goodman, Deputy Associate Director, Volunteer Support
Charles Kemp, Deputy Chief Financial Officer
Samuel Taylor, Director, Office of Budge and Analysis
Jamie Loughridge, Chief of Planning, Performance and Data Management
              Peace Corps
              Office of Inspector General




  The Peace Corps’ Performance and                           The Peace Corps’ Congressional
Accountability Report, Fiscal Year 2011                    Budget Justification, Fiscal Year 2012




                     The Peace Corps’ Strategic Plan Fiscal Years 2009-2014
                         and Performance Plan Fiscal Years 2009-2011


                 Final Audit Report:
     The Peace Corps’ Budget Formulation Process
                      IG-12-02-A
                                                                              February 2012
                                      EXECUTIVE SUMMARY
Our audit focused on whether the Peace Corps’ budget process was effective in formulating the
agency’s overall budget; complied with applicable federal laws, regulations, and Peace Corps
policy; and had sufficient internal control. The Peace Corps’ budget formulation process did not
fully comply with applicable federal laws and regulations; lacked sufficient transparency; and
did not have fully documented controls.

The Peace Corps had not fully implemented federal laws and regulations requiring the use of
performance data to inform budget decision-making and resource allocation. The Government
Results and Performance Act (GPRA), GPRA Modernization Act of 2010, and Office of
Management and Budget (OMB) Circular No. A-11 requires federal agencies to describe the
relationship between performance goals and the resources for achieving targeted levels of
performance. We determined that the agency did not sufficiently identify resources related to
projected costs of human and capital investments, and did not report the associated costs of such
resources used to achieve the Peace Corps’ performance goals. This lack of a clear link between
performance reporting and the budget inhibits the use of performance data as an effective tool for
justifying and prioritizing budget decisions, allocating resources, and formulating future budget
estimates and performance goals. Further, managers cannot accurately assess whether goals are
reasonable, achievable, and cost effective without information to understand the full cost of a
program. We also found that the agency did not comply with GPRA and OMB Circular No.
A-11 regarding timely reporting and making certain performance reports publicly available.

The Request for Agency Resources (RAR) approval and budget reduction decision processes
within the Peace Corps were not sufficiently transparent and a clear line of communication
regarding certain budgeting decisions was lacking. We found agency processes lacked a full and
open review by the senior managers who represent the various functional and program
component offices. Management did not document the basis for decisions made on RARs and
budget reductions and had not established criteria for decision-making. Further, we determined
that approved RARs were not tracked to determine if requesting components fulfilled the
objectives included in their justification for additional funding. As a result, the Peace Corps’
highest priorities may not be adequately funded, scarce agency resources might not necessarily
be put to the best use, and executives were not fully informed of key budget decisions.

The Peace Corps Office of Budget and Analysis had not sufficiently documented and assessed its
internal control over the budget process. A weak internal control structure impacts the ability to
adequately assess risks, determine if effective internal control activities are in place, and
efficiently locate and retrieve supporting documentation that validates and authorizes
transactions. Procedures related to preparing detailed line item budgets, reviewing and analyzing
RARs, processing budget transactions, and performing mid-year reviews of the agency’s budget
were not fully documented. We found that the overall internal control structure related to these
procedures lacked adequate detail for ensuring that data supporting budget transactions, and
inputs for budgetary reporting, was complete and accurate. Prior to FY 2011 a central database
for maintaining sufficient detail related to all RARs submitted by agency components was not
maintained and much of this budget data was not always retained or was not readily available.


Final Audit Report: Peace Corps’ Budget Formulation Process                                        i
Management concurred with 11 out of 12 recommendations. All recommendations remain open
pending copies of the documents described in Appendix F and G.




Final Audit Report: Peace Corps’ Budget Formulation Process                               ii
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................................. i

BACKGROUND .......................................................................................................................... 1

FINDINGS AND RECOMMENDATIONS ....................................................................................... 4
       INTEGRATING PERFORMANCE AND BUDGET PROCESSES......................................................................... 4

       TRANSPARENCY OF THE REQUEST FOR AGENCY RESOURCES APPROVAL AND BUDGET REDUCTION
       DECISION PROCESSES ......................................................................................................................... 11

       INTERNAL CONTROL OVER THE BUDGET PROCESS ............................................................................... 16


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE.............................................. 20

LIST OF RECOMMENDATIONS................................................................................................ 21

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY                                               ..................................................... 23

APPENDIX B: FEDERAL BUDGET FORMULATION TIME TABLE ........................................... 24

APPENDIX C: BUDGET REQUESTS PRESENTED WITH GOALS .............................................. 25

APPENDIX D: RISK ASSESSMENT RATING.............................................................................. 27

APPENDIX E: LIST OF ACRONYMS ........................................................................................ 28

APPENDIX F: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ........................ 29

APPENDIX G: OIG COMMENTS ............................................................................................. 39

APPENDIX H: AUDIT COMPLETION AND OIG CONTACT ..................................................... 41
                                              BACKGROUND
The Office of Inspector General (OIG) conducted an audit of the Peace Corps’ budget
formulation and execution process. Our primary objective was to determine if the Peace Corps
had an effective and efficient process in place for formulating and executing the budget. An
additional objective was to determine if the agency was fully complying with applicable federal
laws and regulations as well as Peace Corps policy governing the budget process. Further, we
reviewed internal control as it related to our objectives. Appendix A provides a full description
of our audit objectives, scope, and methodology.

Laws and Regulations
The GPRA was enacted to establish a requirement for strategic planning and performance
measurement in the federal government. Key purposes of this act include improving public
confidence in federal operations, achieving greater accountability, making programs more
effective, and assisting Congressional decision making through better visibility over agency
performance. In January 2011, President Obama signed the GPRA Modernization Act of 2010.
This act establishes some important changes to existing requirements that move toward a more
useful approach to performance planning and reporting. It serves as a foundation for helping
agencies to focus on their highest priorities and creating a culture where data and empirical
evidence plays a greater role in policy, budget, and management decisions.

OMB Circular No. A-11 provides overall guidance and requirements for formulation and
execution of federal agency budgets. It also includes guidance on performance management and
details regarding preparing agency strategic plans, annual performance plans, Congressional
budget justifications (CBJ), and annual performance reports.

Public Law 97-255, “The Federal Managers' Financial Integrity Act (FMFIA) of 1982,”
encompasses accounting and administrative controls. Such controls include program,
operational, and administrative areas as well as accounting and financial management. FMFIA
establishes specific requirements with regard to management controls. It requires, “ongoing
evaluations and reports of the adequacy of the systems of internal accounting and administrative
control of each executive agency.” The act encompasses program, operational, and
administrative areas as well as accounting and financial management.

OMB Circular No. A-123 provides guidance for compliance with FMFIA to federal agencies.
The regulation requires agency management to develop and maintain effective internal control to
provide assurance that significant weaknesses in the design or operation of internal control, that
could adversely affect the agency’s ability to meet its objectives, would be prevented or detected
in a timely manner. It further states that internal control should not be an isolated management
tool; instead agencies should integrate their efforts to meet the requirements of the FMFIA with
other efforts to improve effectiveness and accountability. The circular also states that, “internal
control should be an integral part of the entire cycle of planning, budgeting, management,
accounting, and auditing…and provide continual feedback to management….internal control
applies to program, operational, and administrative areas as well as accounting and financial
management.”


Final Audit Report: Peace Corps’ Budget Formulation Process                                         1
Historical Budget Data
Table 1 shows the Peace Corps’ historical appropriation data for FYs 2006-2011. Data included
in the table indicates the amounts of funding appropriated to the Peace Corps and unobligated
amounts carried over to the next fiscal year (FY). The Peace Corps has two year budget authority
and is authorized by law to carry over any unobligated amounts appropriated to the next FY.

                             Table 1. FY 2006-2011 Peace Corps Appropriation and
                              Unobligated Funding Carried Forward (in millions)
                                Fiscal Year     Appropriated      Carried Forward
                                   2011           $375                $46.2
                                   2010           $400                $48.3
                                   2009           $340                $22.8
                                   2008           $333.5              $13.1
                                   2007           $319.7              $10.6
                                   2006           $322                 $ 7.8

Federal Budget Formulation Process
The Congressional Research Services provided a summary of the budget process in CRS Report
for Congress, “Introduction to the Federal Budget Process.” It stated that:

         Preparation of the President’s budget typically begins in the spring (or earlier) each year, at least nine
         months before the budget is submitted to Congress, about 17 months before the start of the fiscal year to
         which it pertains, and about 29 months before the close of that fiscal year. The early stages of budget
         preparation occur in federal agencies. When they begin work on the budget for a fiscal year, agencies
         already are implementing the budget for the fiscal year in progress and awaiting final appropriations actions
         and other legislative decisions for the fiscal year after that. The long lead times and the fact that
         appropriations have not yet been made for the next year mean that the budget is prepared with a great deal
         of uncertainty about economic conditions, presidential policies, and congressional actions.

         As agencies formulate their budgets, they maintain continuing contact with the OMB examiners assigned to
         them. These contacts provide agencies with guidance in preparing their budgets and also enable them to
         alert OMB to any needs or problems that may loom ahead. Agency requests are submitted to OMB in late
         summer or early fall; these are reviewed by OMB staff in consultation with the President and his aides.
         (Code 98-721 GOV, updated March 7, 2008)

See Appendix B for the OMB Circular No. A-11 presentation of major steps in the Federal
budget formulation process.

The Peace Corps’ Budget Process
The Office of Strategic Information, Research, and Planning (OSIRP), manages the process to
develop information used in the Peace Corps’ strategic and performance plans. The Peace Corps’
budget exercise begins when the Director issues Integrated Planning and Budget System (IPBS)
guidance to the agency’s offices and overseas posts. Based on this guidance, offices follow the
IPBS process that represents a multilevel global planning process that requires each office and
sub-office to set goals and establish measurable objectives and tasks considering projected
funding. Figure 1 depicts the Peace Corps’ annual budget process that offices and posts use for
developing operating plans for their base budget amounts and receiving additional funds through
RARs.




Final Audit Report: Peace Corps’ Budget Formulation Process                                                         2
Figure 1. The Peace Corps’ Budget Process




                                                                                                                                          April - June
                                                                                         August - September
     March - July




                                                June- July
                    Offices and posts develop                Office of Budget and                             Offices and posts prepare                  Office of Budget and
                    and update 3-year                        Analysis calculates the                          detailed operating plan                    Analysis conducts mid-
                    strategic plan.                          base budget.1                                    and budget.                                year review with offices
                    Posts submit requests for                The Director, with advice                        Management reviews                         and posts.
                    enhancement or                           from the Budget Officer,                         budgets.                                   Offices and posts may
                    reductions.                              approves and allocates                           Offices and regions                        submit mid-year RARs.
                    OSIRP gathers and                        “Budget marks” to various                        submit RARs.                               Senior executives approve
                    reviews the plans.                       offices based on                                                                            or reject mid-year RARs.
                                                             estimates.                                       Senior executives approve
                    Senior executives makes                                                                   or reject RARs.
                    internal planning and                                                                     Budget officer totals
                    budget decisions.                                                                         budgets with RARs, and
                                                                                                              presents to Director for
                                                                                                              final approval.



 1
  The base budget is calculated using the current year budget, which is adjusted for inflation and changes in program
 factors, plus newly approved RARs, less expired funding for RARs.




Final Audit Report: Peace Corps’ Budget Formulation Process                                                                                                                      3
                         FINDINGS AND RECOMMENDATIONS
INTEGRATING PERFORMANCE AND BUDGET PROCESSES

The Peace Corps had not fully implemented federal laws and regulations requiring the use of
performance data to inform budget decision-making and resource allocation and certain
performance reporting was not timely.

The GPRA Modernization Act of 2010 requires agencies to develop strategic and performance
plans containing goals and objectives and a description of how they are to be achieved, including
a description of the operational processes, skills, and technology, and the human, capital,
information, and other resources required to achive those goals and objectives.1 OMB Circular
No. A-11 requires resources be aligned at the program level and encourages agencies to align
resources at the performance goal level. Peace Corps did not clearly identify the resources
needed to achieve its strategic goals and objectives. Further, the Peace Corps’ budget and
performance documentation did not sufficiently report resources required to meet the agency’s
stated performance goals. The Peace Corps managers responsible for preparing and reporting the
information did not believe it was cost effective to fully integrate performance and budget data
and stated that the information was not required by the OMB examiner. Also, the agency’s
Annual Performance Plan, containing the FY 2012 performance data was not finalized and
included in the FY 2012 CBJ or made publicly available due to an oversight.

As a result, the Peace Corps lacked a clear link between performance reporting and the budget,
making it difficult to use performance reporting data as an effective tool for justifying and
prioritizing budget decisions, allocating resources, and formulating future budget estimates and
performance goals. Managers could not accurately assess whether goals are reasonable,
achievable, and cost effective without understanding the full cost of a program. Further, the
Peace Corps did not fully comply with the intent of applicable laws and regulations governing
the content and timely reporting of budget and performance data.

Performance Budgeting Explained
Performance budgeting is the process of linking expected results to budget levels. Tying
performance goals and outcomes to the budgetary resources is not a new requirement for federal
agencies and departments. GPRA, which stresses the importance of using performance reporting
in the budgeting process, was signed into law 18 years ago. Since that time, interest in preparing
and presenting performance budgets to the White House executive offices, the Congress, and the
public at large has grown as evidenced in numerous Government Accountability Office (GAO)
reports and OMB revisions to related regulations. While the requirement is not new, the
approach has changed over time.

In January 2011, the GPRA Modernization Act of 2010 was signed into law. This law serves to
update the original act adding new requirements and emphasis on preparing performance
budgets. The act requires agencies to appoint the deputy head of the agency as the chief


1
    GPRA, which was amended by the GPRA Modernization Act of 2010, contained this same requirement.


Final Audit Report: Peace Corps’ Budget Formulation Process                                           4
operating officer responsible for improving the management and performance of the agency and
designate a performance improvement officer to assist with this process. The act also continues
to require agencies to include their inputs (for example staff, technology, and other operating
costs) when developing strategic plans and considering how program goals will be achieved. The
underlying concept is that without understanding the full cost of a program, managers cannot
accurately assess whether goals are reasonable, achievable, and cost effective. In an austere
budget environment it is essential that federal managers consider carefully how they use taxpayer
dollars, weigh the opportunity costs, and ensure efficiency.

GPRA and OMB Circular A-11 require performance plans for each program activity2 to include
“operational processes, skills and technology, and the human, capital, information, or other
resources required to meet the performance goals.” OMB Circular No. A–11 indicates:

         Integrating performance information in the budget process remains a priority. The performance goals,
         measures and targets in agency performance plans should be consistent with those set through agency
         strategic and performance planning processes, and updated to reflect final congressional action on FY 2012
         appropriations, if complete. The FY 2013 budget submission should reflect the amount needed to meet FY
         2013 targets. At a minimum, resources are aligned at the program level within this framework, and
         agencies are encouraged to align resources at the performance goal level (Part 6, Section 220.6).

According to the GAO, “GPRA requires linkages of performance plans to budgets, recognizing
that one of the ways in which the full acceptance and potential of performance management can
be promoted is if this information becomes relevant for the allocation of resources.”3 In recent
Congressional testimony4 before the Senate Committee on the Budget, the GAO Comptroller
General emphasized government challenges such as ensuring that performance information is
both useful and used for decision making. The Comptroller General stated that, “Moving
forward, the GPRA Modernization Act can offer opportunities to help make tough choices in
setting priorities as well as reforming programs and management practices to better link
resources to results.”




2
  Although the President’s Budget lists the Peace Corps as a single program activity, GPRA and OMB Circular
Number A-11, Section 220.7 state that, “Agencies may aggregate, disaggregate, or consolidate program activities,
except that any aggregation or consolidation may not omit or minimize the significance of any program activity
constituting a major function or operation for the agency.”
3
  Performance Budgeting: Opportunities and Challenges, Statement of David M. Walker, Comptroller General,
GAO-02-1106T, September 19, 2002.
4
  Government Performance: GPRA Modernization Act Provides Opportunities to Help Address Fiscal, Performance,
and Management Challenges, GAO-11-466T, March 16, 2011.


Final Audit Report: Peace Corps’ Budget Formulation Process                                                       5
Figure 2 demonstrates how performance budgeting provides decision makers with results that
inform budget decisions.

                  Figure 2. The Performance Budget Cycle




                  Results-Oriented Budget Practices in Federal Agencies, GAO-01-1084SP, August 2001.

Integrating Budgeting and Performance Goals
The Peace Corps requires offices to consider performance goals during the budget formulation
process, but does not fully integrate the budget information with the performance goals to ensure
that performance data is used in resource allocation and tied to presentation of performance
goals. The Peace Corps’ IBPS process is intended to integrate planning and budgeting to include
performance and results. According to Peace Corps Manual section (MS) 702:

         The Operating Plan and Budget Process occurs during August and September each year. Based on the
         Director's IPBS decisions and guidance from their Regional and Associate Directors, each post and office
         prepares a detailed operating plan and budget, taking the goals and objectives of the strategic plan down to
         the task level and focusing specifically on the upcoming fiscal year.

Peace Corps CFO Bulletin Number 06-03, “Reengineering of Peace Corps’ Integrated Planning
and Budget System,” states:

         The Integrated Planning and Budget System (IPBS) is Peace Corps’ primary program and resource
         management planning mechanism. IPBS is consistent with the planning process defined by the Government
         Performance and Results Act and is tied to the President’s Management Agenda.

         The agency, with input from the regions and other major offices, is envisioning a system to roll up results
         from posts and domestic offices into the Performance and Accountability Report using key indicators as
         required by the Program Assessment Rating Tool. The information submitted by posts and domestic offices
         is used by Peace Corps to make decisions on how and where to allocate the resources provided with a focus
         on rewarding performance and ensuring that reported results are verifiably measured (January 6, 2006).




Final Audit Report: Peace Corps’ Budget Formulation Process                                                             6
The Peace Corps’ Strategic Plan for FYs 2009-2014 and Performance Plan 2009-2011 included
five strategic goals and 14 performance goals. The goals did not present inputs such as costs and
personnel. Although the plans discuss how performance and budget information are integrated,
the goals and results do not sufficiently drive the budget decisions and resource allocation.
During the IPBS process individual Peace Corps offices are required to submit goals and
objectives and use resources to meet those goals. The IPBS also requires offices to identify
which agency goal is addressed by the office goals. However, offices were not required to
identify the resources allocated to the specific goals. Without this information, management
could not fully assess how the final budget mark and subsequent budget decisions would impact
performance goals.

The Federal Budget Formulation and Execution Line of Business states that an advanced budget
process includes a budget that flows from the strategic plan; includes performance measures that
are clear and quantitative and describe the relationship between the expected results and the
resources requested; and actual data used is integrated with the strategic plan.5 To better link
performance data with budget information, the Peace Corps needs to determine the primary
inputs required for each of its agency performance goals. It might not be practical to track every
resource to a goal when the cost of gathering the information would exceed the benefit.
However, many of the Peace Corps’ 14 performance goals can be connected to existing financial
data. For example:

           Performance goal 3.1.2 “Increase Returned Peace Corps Volunteers’ cultural outreach to
           the American public through Peace Corps programs” is tied to Peace Corps’ education
           partners and programs such as Coverdell World Wise schools.

           Performance goal 4.1.2 “Manage Volunteer recruitment functions in an efficient and
           effective manner” is directly impacted by the budget of the Volunteer Recruitment and
           Selection office.

           Performance goals 5.1.1 and 5.1.2 “Ensure the safety and security of Volunteers” and
           “Provide quality medical and mental health services to trainees and Volunteers” can be,
           in part, tracked by each expenditure charged against the medical expenses and the safety
           and security budgetary purpose code.

Measuring Performance Goals
The Peace Corps did not provide cost-related measurements for performance goals and has not
fully complied with Federal cost accounting requirements. Reporting reliable and timely
information on the full cost of federal programs, their activities, and outputs is a fundamental
concept of financial and performance reporting and is required by the Federal Accounting
Standards Advisory Board (FASAB).

The Association of Government Accountants (AGA) annually reviews federal agency’s
Performance and Accountability Reports (PAR) for presentation, content, and compliance with



5
    Budget Capability Self-Assessment Tool (SAT) version 2.0, April 4, 2011, OMB Max website.


Final Audit Report: Peace Corps’ Budget Formulation Process                                        7
laws and regulations. Although AGA awarded the Peace Corps the AGA Certificate of
Excellence in Accountability Reporting for its PAR, its reviewers have recommended that the
agency provide efficiency or cost-effectiveness measures for its performance goals. In its
Certificate of Excellence in Accounting Reporting recommendations regarding the Peace Corps’
Performance Section of the FY 2010 PAR, the AGA commented that:

         The report does not present any measures that enable readers to ascertain the efficiency or cost-
         effectiveness with which the Peace Corps is managing the resources to which it has been entrusted (i.e.,
         measures that relate financial or other inputs to outputs or outcomes). Although the Peace Corps does not
         currently maintain a cost accounting system, presenting at least one or a few efficiency or cost-
         effectiveness measures when the systems capability is available would enable Peace Corps to demonstrate
         its accountability for managing the resources to which it has been entrusted.

According to the Statement of Federal Financial Accounting Concepts No. 1, “Objectives of
Federal Financial Reporting,” issued in 1993, the objectives of federal financial reporting are to
provide useful information to assist internal and external users in assessing the budget integrity,
operating performance, stewardship, and systems and control of the federal government.
Managerial cost accounting is the accumulation and reporting of costs of activities on a regular
basis for management information purposes. FASAB’s Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standard”
requires managerial costing be used “to provide reliable and timely information on the full cost
of federal programs, their activities, and outputs. Managerial cost accounting is especially
important for fulfilling the objective of assessing operating performance.” It further states:

         Managerial cost accounting is especially important for fulfilling the objective of assessing operating
         performance. In relation to that objective, it is stated in SFFAC [Standard of Federal Financial Accounting
         Concepts] No. 1 that federal financial reporting should provide information that helps users to determine:

                  Costs of specific programs and activities and the composition of, and changes in, those costs;
                  Efforts and accomplishments associated with federal programs and their changes over time and in
                  relation to costs; and
                  Efficiency and effectiveness of the government's management of its assets and liabilities (July 31,
                  1995).

The Peace Corps Office of Budget and Analysis expressed concern that quantifying and
allocating costs and resources to goals may be difficult and would require additional work.
However, the method of allocating costs and quantifying performance results depends on each
agency’s needs. SFFAS No. 4 further states that, “Each reporting entity should determine the
appropriate detail for its cost accounting processes and procedures based on several factors.”
The standard includes factors such as the nature of operations; precision desired and needed,
practicality of data collection and processing; and cost of installing, operating, and maintaining
the cost accounting processes. Further, the Peace Corps presented costs and resources with its
goals in previous years. For example, the Peace Corps’ FY 2003 CBJ included cost and
personnel resources for each of its performance goals, including comparisons of planned,
estimated, and actual resources (see Appendix C). The Peace Corps continued to include the
specific resources needed in its Annual Performance Plan submitted with the agency’s FY 2004
PAR, but discontinued displaying this type of information in FY 2005.



Final Audit Report: Peace Corps’ Budget Formulation Process                                                            8
Timely Performance Planning
Although the Peace Corps prepared current performance planning data and included it with its
FY 2012 budget request submitted to OMB in September 2010 it did not publish such data with
its FY 2012 CBJ or make it publicly available within the established milestones as required by
OMB Circular No. A-11 (July 2010). Instead, the Peace Corps’ FY 2010 Annual Performance
Report was included with the FY 2012 CBJ that was submitted to the Congress in February
2011. A draft Performance Plan covering the FYs 2012-2014 performance period was submitted
to OMB for review in July 2011. The agency recently received OMB’s comments regarding the
draft Performance Plan and is finalizing it so it can be made publicly available. A draft version of
this plan was coordinated with agency managers in September 2011. However, as of November
22, 2011 the Performance Plan posted to the agency’s public website covered the FYs 2009-2011
performance period.

The Peace Corps did not comply with OMB Circular No. A-11 regarding the timing and
availability of its FY 2012 Performance Plan. As a result, stakeholders did not have the benefit of
access to timely information regarding the agency’s performance planning. This lack of timely
reporting does not allow the public to stay current and is not consistent with the President’s goal
of maximizing transparency in the federal government. Compliance regarding posting of the
agency’s current Performance Plan to its public website is a continuing issue since the version
that can be publicly accessed is out of date.

Conclusion
While the Peace Corps had robust processes for developing budget plans and performance data,
it had not effectively connected these processes. Managers and stakeholders were not provided
with the complete and accurate information necessary for making informed decisions on resource
allocation, budget cuts, and root causes for performance shortfalls. Further, without aligning
budget requests with the critical data related to meeting the agency’s strategic and performance
goals, the highest priority programs are at risk of not being sufficiently funded for effectively
carrying out those goals. Performance plans should help determine where additional funds or
personnel are needed, which activities are not cost effective, and where budget cuts would result
in the least negative impact.

In keeping with the Congressional intent of GPRA and the GPRA Modernization Act, the Peace
Corps needs to develop better analytical methods for improving its capability to identify, track,
report, and effectively plan for the resources that are necessary to accomplish its strategic and
performance goals. Management decisions must consider the human and capital costs associated
with its goals when approving budget requests and making budget cuts. Additionally, agency
managers responsible for budgetary and performance reporting must ensure that all required
documents are timely and fully compliant with applicable laws and regulations. More effective
and timely reporting will help improve the transparency of budget decisions in supporting the
administration’s initiative of enhancing public understanding of how resources are used, provide
greater accountability of taxpayer dollars expended, and assist OMB and Congressional decision-
makers in more informed decisions regarding requested agency budgets.




Final Audit Report: Peace Corps’ Budget Formulation Process                                       9
We recommend:

    1. That the chief operating officer direct that the Offices of Chief Financial Officer and
       Office of Strategic Information, Research and Planning collaborate in developing better
       analytical methods for preparing performance data that focuses on identifying, tracking,
       and reporting the resources, such as personnel and funding, needed to achieve the desired
       results for strategic and performance goals.
    2. That the chief operating officer ensure that the director of the Office of Strategic
       Information, Research and Planning utilize the methods from recommendation 1 to
       develop performance goals that can be linked to the resources, including the associated
       estimated costs, necessary to successfully achieve them.
    3. That the chief operating officer oversee the agency’s Strategic Plans, Annual
       Performance Plans, OMB budget submissions, Congressional Budget Justifications, and
       Performance and Accountability Reports prior to their release and provide critical
       comments and recommendations to responsible agency offices for purposes of fostering
       continuous improvement.
    4. That the chief operating officer ensure that the agency is fully compliant with all
       applicable Government Performance and Results Act, the Modernization Act, and Office
       of Management and Budget Circular No. A-11 provisions regarding the format, content,
       and timeliness of required information.




Final Audit Report: Peace Corps’ Budget Formulation Process                                      10
TRANSPARENCY OF THE REQUEST FOR AGENCY RESOURCES APPROVAL AND BUDGET
REDUCTION DECISION PROCESSES

The Request for Agency Resources approval and budget reduction decision processes were not
sufficiently transparent and lacked a clear line of communication regarding certain budgeting
decisions.

The processes for reviewing and approving new requirements submitted as RARs or reductions
in budgets were not sufficiently transparent. The Peace Corps had not formalized its policies and
procedures for budget decision making and had not established clear lines of communication
regarding the rationale for approving or rejecting RARs and decisions on budget reductions. The
process also lacked a full and open review by the agency’s key executives that manage and
represent the various functional and program components.

The Office of the Chief Financial Officer (OCFO) reviews RARs and formulates proposals for
reductions in spending before coordinating with the Director for consideration and approval.
However, individual RAR submissions or proposed budget reductions did not benefit from a
collective review by agency component heads and there was no documented evidence of
prioritization. Further, approved RARs were not tracked to determine if objectives included in
their justifications for additional funding were met. As a result, the Peace Corps’ highest
priorities may not be adequately funded, scarce agency resources might not necessarily be put to
the best use, and executives were not fully informed of key budget decisions.

The RAR Review and Approval Process
Each Peace Corps office was responsible for annually preparing its budget based on a “mark”
(funding level) developed by OCFO and approved by the Director. Offices submitted new or
unanticipated requirements through the submission of RARs. RARs included a description of the
requirement, estimated costs, and justification. They were coordinated through OCFO and
ultimately approved, modified, or rejected by the Director or designee.

OCFO reviewed each RAR prior to submission to the Director for approval. This review
consisted primarily of determining if the RAR appeared to be complete, was not duplicative of
resources already in place, and was adequately justified. OCFO had the authority to ask for
additional data from requesting offices, often requiring a component to modify the initially
submitted RAR. After a RAR was reviewed by OCFO it was forwarded to the Director’s office.
Although OCFO closely advised the Director on RARs submitted they informed us that they did
not prioritize them or otherwise influence the Director’s approval process. However, sometimes
RARs were withdrawn by the requesting office prior to reaching the Director’s office either upon
advisement of OCFO or through their own accord.

The Director’s RAR-approval process included a review by five agency executives: the deputy
director, the chief of staff, the chief financial officer (CFO), the associate director for global
operations, and the White House liaison/senior advisor to the Director (the RAR review
committee). The director of budget and analysis, and senior staffers in the Director’s office
served as advisors to the budget review committee but are not directly involved in the decision
process. All committee decisions were based on a consensus reached by the members rather than


Final Audit Report: Peace Corps’ Budget Formulation Process                                     11
through a formal casting of member votes. The budget review committee was created for
purposes of providing a means for performing a high-level review of RARs and other significant
budget matters. The committee met during the regular RAR submission process at the beginning
and middle of the FY and on an as needed basis to consider RARs submitted for approval and
make other important budgeting decisions.

Policies and Procedures
The RAR review committee did not have formal written policy, charter, or procedures. Senior
managers (office heads) were generally aware of agency priorities established through the
agency assessments, strategic planning, and OIG recommendations when making budget
decisions. However, the criteria had not been formally documented to ensure all decision makers
were fully aware of priorities and used the same guidelines when making difficult funding
choices. Further, decisions were not fully documented to support approvals or rejections and
provide the related explanations or justifications. RARs were prioritized at the component office
level but there was no documentation or other evidence of prioritizations at the agency level.

Since the basis for budgeting decisions made by the review committee were not formally
documented, we were not able to determine if the approval process involved sufficient
prioritization of RARs or if decisions about budget cuts were driven by agency priorities. We
identified certain budget decisions that did not appear consistent with agency priorities. For
example, an agency office was advised by OCFO to withdraw a $1.5 million RAR targeted for
improving the quality of medical care for Volunteers and resubmit the request for additional
funding in a FY 2012 RAR. The Peace Corps’ performance goal 5.1.2 is to: “Provide quality
medical and mental health services to trainees and Volunteers.” This performance goal is
included in the agency’s current Strategic and Performance Plans and was reported as a goal in
its FY 2010 PAR. Further, our recent work has confirmed that there were quality issues related to
Volunteer medical care and we agree that improving quality should be one of the Peace Corps
highest priorities. Postponing the funding for high priority issues illustrates that the agency may
not be consistently taking its priorities into consideration when making decisions that impact the
budget.

As discussed in the finding on Integrating Performance and Budget Processes, it is important that
an agency’s’ budget is sufficient to meet its performance goals. In a fully integrated budget
process, the agency would establish performance goals based on its known mission requirements
and then develop a budget that supports successfully carrying out those goals. RARs should be
reserved for initiatives that were not anticipated during setting of performance goals and
formulating a budget. Using RARs to fund programs or activities that are known at the time a
budget is formulated is not an effective budgeting strategy and should be avoided.

Similarly, the process for budget reductions requires established criteria and documented
decisions. The Peace Corps, like other federal agencies, frequently faces budget constraints that
may result in significant cost cutting measures. The current austere budget environment requires
close scrutiny of the availability of budgeted dollars. As the Peace Corps’ financial management
organization, OCFO continuously tracks and monitors the Peace Corps’ financial position.
OCFO serves as an advisor to the Director on the severity of anticipated budget shortfalls and
their potential impact on the overall budget. However, the Director and his staff make the final



Final Audit Report: Peace Corps’ Budget Formulation Process                                     12
decisions on where and how much to cut from the Peace Corps offices’ budgets. All such
decisions made by the Director are communicated by the Director’s office to OCFO and down to
agency components. When making important decisions about how to reduce funding levels for
various programs and offices it is important to clearly communicate the rationale behind the
decisions to ensure transparency and prevent misunderstandings.

Management Perspective
We interviewed most of the key Peace Corps senior managers in charge of the various functional
and programmic components supporting the agency’s mission to obtain their perspective on the
overall budget process. All of the senior managers interviewed stated that the services provided
by OCFO regarding budgeting assistance were satisfactory and they were comfortable asking
questions regarding their component’s budget. However, nine of 10 senior managers interviewed
expressed concern that the present processes for review and approval of RARs and budget
reduction decisions were not sufficiently transparent. There was general consensus among the
key executives and staff we interviewed that they did not fully understand the basis for
approving or rejecting RARs or making budget cuts. They also indicated that although they had a
good understanding of RARs prepared within their own office, they had very limited knowledge
regarding RARs prepared by other offices or the rationale behind RAR decisions.

GAO has long been an advocate of improving the federal budget process through greater
transparency and more effective communication.6 According to GAO, agencies should strive to
improve their budget process by seeking input from agency managers; setting priorities;
coordinating with the stakeholders throughout the process; justifying budgets from both within
the agency and externally to OMB and the Congress; and keeping all affected stakeholders
informed. Broader participation in the budget process can provide greater transparency and
enhances upward and downward communications. Such budget input by component offices and
other stakeholders would help better focus on agency wide priorities, avoid the risk of funding of
resources that may be duplicative, and assist senior leadership in making more informed budget
decisions.

Incorporating additional reviews by agency senior managers is also needed because some RARs
may impact various offices, such as information technology resources of the chief information
officer or contracting resources of the chief acquisition officer. The budget analyst would advise
offices to coordinate with other offices when they determined it useful, but without a more
formal process for review there was no assurance that all of the impacted offices would be aware
of the RAR. In 2010, the CFO began preparing a compilation of RARs at the beginning of the
year and at mid-year to send to office heads. This practice is helpful but OCFO could improve
the process by providing additional communication and feedback from offices and an automated
tool, such as Microsoft SharePoint, for collecting information and documenting the review
process.



6
 “Results-Oriented Budget Practices in Federal Agencies,” GAO-01-1084SP, August 2001; “Performance
Budgeting: Current Developments and Future Prospects,” GAO-03-595T, April 1, 2003; and “Army Corps of
Engineers: Budget Formulation Process Emphasizes Agencywide Priorities, but Transparency of Budget
Presentation Could be Improved,” GAO-10-453, April 2010.


Final Audit Report: Peace Corps’ Budget Formulation Process                                             13
Tracking Approved RARs
Approved RARs were not tracked to determine their status or if the objectives justifying a
requirement for additional funds were met. Without effective controls in place to track and
determine the status of approved RARs, there was little assurance that high priority initiatives
were fully carried out as intended. For example, an RAR approved in FY 2010 to hire specialized
personnel and establish a quality improvement capability within the Peace Corps’ Office of
Medical Services (OMS) was impacted by a lack of continued funding. The Director was fully
committed to implementing a more robust quality improvement plan in the wake of the tragic
death of a Peace Corps Volunteer in Morocco.7 Although this initiative had begun by hiring and
filling some of the positions needed with qualified personnel, its full implementation had been
significantly delayed because of insufficient funding.

Additional funding was requested by OMS for FY 2011 in support of the FY 2010 RAR
objectives but the related RAR submitted was withdrawn upon advisement of OCFO that
approval was not likely. The requesting component office was also advised by OCFO to submit
another RAR in FY 2012. As a result, the requesting office decided not to rely on the RAR
process to fund this initiative and instead identified funding from the office’s FY 2012 operating
budget. This resulted in displacing funding that had been approved for other programs. As part of
the budget, achieving a fully staffed quality improvement operation became dependent on
receiving sufficient funding in the FY 2012 Congressional appropriation to fund this initiative
and other operational costs already approved for funding. This course of action resulted in
delaying or possibly not fulfilling an important initiative that is directly related to one of the
agency’s stated performance goals. Additionally, it is unclear whether the Director or other
executive leadership were aware of the RAR initially submitted by OMS in 2011 but later
withdrawn upon OCFO’s advice that approval was not likely.

Conclusion
The Peace Corps could improve its overall budget process through measures focused on greater
transparency, establishment of clear lines of communication, and documenting the budget
decision-making processes. Formalized policies and procedures with clearly established decision
criteria will help ensure budget decisions are aligned with agency goals and priorities.

Application of a formal method for prioritizing becomes more critical as federal budgets shrink.
A defined process would benefit from established decision criteria, a consistent method of
prioritizing and selecting between competing RARs, and documented decision memoranda. Such
a process could support greater transparency and accountability.

Once RARs are approved, they need to be tracked and their status evaluated to ensure the
purpose of additional funding is accomplished and the offices are accountable. In addition, RARs
and proposed budget reduction decisions would benefit from a broader review and comments
from the various agency executives. A more effective budget process supports increased
communication and input from key managers, which allows executive leadership to make more
informed budget decisions.



7
    Peace Corps OIG Special Report: Peace Corps/Morocco Assessment of Medical Care, February 2010.


Final Audit Report: Peace Corps’ Budget Formulation Process                                          14
We recommend:

    5. That the Director revise the process for reviewing Request for Agency Resources and
       budget reductions and update Peace Corps Manual section 702 accordingly, to ensure
       greater transparency and agency participation in budget formulation by:

             a. Coordinating all Request for Agency Resources and proposals for budget
                reductions with the office heads prior to their consideration by the review
                committee;
             b. Providing a reasonable exposure period for formulation of feedback on the
                Request for Agency Resources and budget reduction proposals;
             c. Receiving and discussing feedback after the exposure period, and prior to
                committee consideration for approval; and
             d. Documenting the rationale for budgeting decisions and maintaining such
                documentation in accordance with applicable laws and regulations.

    6. That the Director formally establish the budget review committee and its processes, in
         Peace Corps Manual section 702 and accompanying procedure, to enhance the process
         for advising the Director on Request for Agency Resources and budget reductions. The
         policy and procedure should include the committee’s mission, membership, roles and
         responsibilities, and describe the process to:

             a. Coordinate budget information with office heads as discussed in
                recommendation 5;
             b. Evaluate budget requests using established criteria;
             c. Prioritize Request for Agency Resources; and,
             d. Document and retain budgeting advice and rationale.

    7. That the Director ensure that the Office of the Chief Financial Officer refer all properly
       formulated Request for Agency Resources to the Director, and refrain from advising
       components to withdraw them prior to committee review so that all requests can be
       properly reviewed in accordance with agency wide priorities and needs.

    8. That the Peace Corps chief operating officer, in coordination with the chief financial
       officer, develop a written policy and procedure for tracking the status of all approved
       Request for Agency Resources that includes following up with requesting agency
       components, and taking appropriate corrective actions when it is determined that Request
       for Agency Resources objectives are not being met or are significantly delayed.




Final Audit Report: Peace Corps’ Budget Formulation Process                                         15
INTERNAL CONTROL OVER THE BUDGET PROCESS

The Office of Budget and Analysis had not fully documented its control structure over the
budget process to ensure significant risks were appropriately mitigated.

The Office of Budget and Analysis employed 14 budget analysts, including budget analyst
technical managers and senior budget analysts to prepare detailed line item budgets, review and
analyze RARs, process budget transactions, and perform mid-year reviews of the agency’s
budget. The budget process contained control activities such as supervisory approvals and
separation of duties. In addition, the Office of Budget and Analysis recently implemented a
budget software application with additional system controls. However, the Office of Budget and
Analysis had not sufficiently documented these procedures or its internal control structure related
to budgetary transactions and processes to ensure accuracy and completeness of the associated
data. Specifically:

         The annual risk assessment prepared by the director of budget and analysis did not
         include sufficient details with supporting documents to verify the conclusions;

         The director of budget and analysis had not fully documented the budget process and
         evaluated the associated internal control activities within the Office of Budget and
         Analysis or over the budget system; and

         The Office of Budget and Analysis did not maintain appropriate documentation to
         support all budget transactions.

As a result, it was difficult to confirm the level of risk assessed by the director of budget and
analysis and whether proper internal control activities were established and sufficient in number
and operating effectively in order to mitigate those risks. Without defining the risks and
inventorying and assessing controls, management could not make a fully informed judgment as
to the overall adequacy and effectiveness of internal control within the agency as required by
FMFIA and OMB Circular No. A-123.

The Peace Corps’ Policies
MS 784, “Internal Control System,” defines the policies and procedures for establishing,
maintaining, and evaluating internal control in accordance with FMFIA and OMB A-123.

         Internal control should be an integral part of the entire cycle of planning, budgeting, management,
         accounting and program execution. Internal control applies to program, operational and administrative
         areas as well as accounting and financial management. Monitoring the effectiveness of internal control
         should occur in the normal course of business. Office heads, managers, and employees should identify
         deficiencies in internal control from all available sources of information and report those control
         deficiencies to the next supervisory level to determine the relative importance of each deficiency.

CFO Policy Statement Number 06-02 identified the policies and procedures for establishing and
maintaining an effective internal control programming within OCFO. The policy required
managers within OCFO to:



Final Audit Report: Peace Corps’ Budget Formulation Process                                                       16
         Perform the initial risk assessment.

         Prepare internal control evaluation checklists for each process, which contains questions
         that determine whether or not functions are being carried out according to law,
         regulations, and generally accepted business practices.

         Assess any identified weakness for materiality, develop corrective action plans with
         milestones and completion dates, and maintain documentation for at least two years after
         completion.

Risk Assessment
OCFO requires each office to prepare a risk assessment annually using its standard risk
assessment template (see Appendix D). The Implementation Guide for OMB Circular A-123
issued by the CFO’s Council, July 2005, defines risk assessment as an internal management
process for identifying, analyzing and managing risks relevant to achieving the objectives of
reliable financial reporting, safeguarding of assets and compliance with relevant laws and
regulations. According to CFO Policy Statement 06-02, the manager preparing the risk
assessment is required to:

         Answer all checklist questions with either a yes or no. An explanation must be included for each answer.
         The explanation must show the basis for each response and must be supported by work-papers, when
         applicable. A reasonably knowledgeable person (e.g., supervisor or auditor) reviewing the checklist should
         be able to reach the same conclusions.

The director of budget and analysis certified a risk assessment template, with a “Low” risk
rating. However, the Office of Budget and Analysis had not retained documentation to
substantiate conclusions noted in the annual risk assessment. Further, the director of budget and
analysis responded affirmatively to the following questions under caption “security programs,
planning, and management, access controls, application software development and change
controls, system software, segregation of duties, and service continuity”:

         Does the functional area have effective documented financial and operating controls or
         checks and balances over assets and information to protect against fraud, waste, abuse,
         mismanagement and conflicts of interest?

         Does the functional area have relevant and periodic management information system
         data, reports and procedures to adequately manage, monitor and evaluate performance of
         significant activities and are mgmt controls integrated into systems?

We noted that office of budget and analysis had not fully documented their processes and
controls. Without supporting documentation, it is not possible to reach the same conclusions
noted in their risk assessment. An effective risk assessment process should be documented to
enable the evaluation of controls and retention of work papers that evidence results of evaluation
and support the risk assessment as prescribed by the CFO policy.




Final Audit Report: Peace Corps’ Budget Formulation Process                                                      17
Documentation and Evaluation of Controls
The director of budget and analysis had not fully identified and documented the control activities
within the Office of Budget and Analysis and over the budget process. Further, there was no
documented procedure to evaluate whether the internal control over the budget process is
adequate and operating effectively.

CFO Policy Statement 06-02 states:

         Internal controls include such things as the organizational structure itself (designating specific
         responsibilities and accountability), formally defined procedures (e.g., required certifications and
         reconciliations), checks and balances ( e.g., separation of duties), recurring reports and management
         reviews, supervisory monitoring, physical devices (e.g., locks), and a broad array of measures used by
         managers to provide reasonable assurance that their subordinates are performing as intended.

It requires managers to:

         Prepare internal control evaluation checklists for each process;

         Perform a periodic, detailed assessment of key internal controls to determine whether
         they are operating as intended. This assessment must be based on the actual testing of
         key internal controls and must be supported by documentation;

         Maintain documentation for at least two years after completion.

Without adequate documentation about the organizational structure, formally defined budget
procedures, a list of key internal control activities, and a formal assessment, it is difficult to
conclude if the proper internal control activities were established, sufficient in number, and
operating effectively.

Record Retention
Prior to FY 2011, the Office of Budget and Analysis did not have a formalized process to
maintain support for transactions processed and RARs submitted to the Office of Budget and
Analysis or retain RAR documentation at a central filing location. Individual budget analysts
processed transactions in the budget system and maintained support without the availability of an
established standard. RARs that were submitted and subsequently withdrawn or otherwise not
approved were generally not retained. As a result, we were unable to perform a review of the
complete universe of RARs submitted by component offices. In FY 2011, OCFO began
documenting all RARs received in Hyperion, its budget and planning software application.
However, there was no specific written guidance within the Office of Budget and Analysis to
determine what supporting documents should be retained and how they should be archived that
complies with the general records schedule issued by the national archives or MS 892 “Records
Management.”

MS 892 requires that offices institute adequate records management controls over the
maintenance and use of records to ensure that records can be located when needed and that they
are preserved for eventual disposition. Further, OMB Circular A-123, “Management’s
Responsibility for Internal Control” states:


Final Audit Report: Peace Corps’ Budget Formulation Process                                                       18
         While the procedures may vary from agency to agency, management should have a clear, organized
         strategy with well-defined documentation processes that contain an audit trail, verifiable results, and
         specify document retention periods so that someone not connected with the procedures can understand the
         assessment process.

Without an adequate audit trail and complete documentation supporting budgetary transactions it
is difficult to determine the basis for formulating and executing the agency’s budget or defend
budget decisions. As previously discussed in our finding on the transparency of the RAR
approval and budget reduction processes, the agency did not document how it prioritizes RAR
submissions or their justifications for approval or rejection. Clearly defined procedures for
retaining documentation is a key control to help ensure important decisions and transactions are
properly supported and information is readily available.

We recommend:

    9. That the chief financial officer ensure that the director of budget and analysis performs a
       comprehensive review that will result in identifying and documenting significant risks
       associated with the budget process and serve as a framework for drafting and
       implementing policy and procedures that will strengthen internal control.

    10. That the chief financial officer ensure that the director of budget and analysis develops a
        sufficiently detailed risk assessment tool that provides an explanation of how each risk
        that has been indentified is mitigated and documents the basis for each response related to
        risk mitigation. This tool should formally incorporate the Office of Budget and Analysis’
        policy and procedures that includes written instructions for retention of documentation
        supporting budget-related transactions and lists key internal control activities, such as
        appropriate segregation of duties within the Office of Budget and Analysis and budget
        system.

    11. That the chief financial officer ensure that the director of budget and analysis develops
        and implements formal written procedures to provide for continuous monitoring of the
        agency’s control environment related to the budget process to determine whether proper
        internal control activities are established, are sufficient in number, and operating
        effectively.

    12. That the chief financial officer ensure that the director of budget and analysis formalizes
        the process within the Office of Budget and Analysis for analyzing and advising on
        Request for Agency Resources and retain the results and conclusions of all analyses
        together with the associated Request for Agency Resources.




Final Audit Report: Peace Corps’ Budget Formulation Process                                                   19
                              QUESTIONED COSTS AND
                           FUNDS TO BE PUT TO BETTER USE
We did not identify questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps’ Budget Formulation Process                                      20
                               LIST OF RECOMMENDATIONS
We recommend:

1. That the chief operating officer direct that the Offices of Chief Financial Officer and Office
of Strategic Information, Research and Planning collaborate in developing better analytical
methods for preparing performance data that focuses on identifying, tracking, and reporting the
resources, such as personnel and funding, needed to achieve the desired results for strategic and
performance goals.

2. That the chief operating officer ensure that the director of the Office of Strategic Information,
Research and Planning utilize the methods from recommendation 1 to develop performance
goals that can be linked to the resources, including the associated estimated costs, necessary to
successfully achieve them.

3. That the chief operating officer oversee the agency’s Strategic Plans, Annual Performance
Plans, OMB budget submissions, Congressional Budget Justifications, and Performance and
Accountability Reports prior to their release and provide critical comments and
recommendations to responsible agency offices for purposes of fostering continuous
improvement.

4. That the chief operating officer ensure that the agency is fully compliant with all applicable
Government Performance and Results Act, the Modernization Act, and Office of Management
and Budget Circular No. A-11 provisions regarding the format, content, and timeliness of
required information.

5. That the Director revise the process for reviewing Request for Agency Resources and budget
reductions and update Peace Corps Manual section 702 accordingly, to ensure greater
transparency and agency participation in budget formulation by:

    a. Coordinating all Request for Agency Resources and proposals for budget reductions with
       the office heads prior to their consideration by the review committee;
    b. Providing a reasonable exposure period for formulation of feedback on the Request for
       Agency Resources and budget reduction proposals;
    c. Receiving and discussing feedback after the exposure period, and prior to committee
       consideration for approval; and
    d. Documenting the rationale for budgeting decisions and maintaining such documentation
       in accordance with applicable laws and regulations.

6. That the Director formally establish the budget review committee and its processes, in Peace
Corps Manual section 702 and accompanying procedure, to enhance the process for advising the
Director on Request for Agency Resources and budget reductions. The policy and procedure
should include the committee’s mission, membership, roles and responsibilities, and describe the
process to:



Final Audit Report: Peace Corps’ Budget Formulation Process                                      21
    a.   Coordinate budget information with office heads as discussed in recommendation 5;
    b.   Evaluate budget requests using established criteria;
    c.   Prioritize Request for Agency Resources; and,
    d.   Document and retain budgeting advice and rationale.

7. That the Director ensure that the Office of the Chief Financial Officer refer all properly
formulated Request for Agency Resources to the Director, and refrain from advising components
to withdraw them prior to committee review so that all requests can be properly reviewed in
accordance with agency wide priorities and needs.

8. That the chief financial officer, in coordination with the performance improvement officer,
develop a written policy and procedure for tracking the status of all approved Request for
Agency Resources that includes following up with requesting agency components, and taking
appropriate corrective actions when it is determined that Request for Agency Resources
objectives are not being met or are significantly delayed.

9. That the chief financial officer ensure that the director of budget and analysis performs a
comprehensive review that will result in identifying and documenting significant risks associated
with the budget process and serve as a framework for drafting and implementing policy and
procedures that will strengthen internal control.

10. That the chief financial officer ensure that the director of budget and analysis develops a
sufficiently detailed risk assessment tool that provides an explanation of how each risk that has
been indentified is mitigated and documents the basis for each response related to risk
mitigation. This tool should formally incorporate the Office of Budget and Analysis’ policy and
procedures that includes written instructions for retention of documentation supporting budget-
related transactions and lists key internal control activities, such as appropriate segregation of
duties within the Office of Budget and Analysis and budget system.

11. That the chief financial officer ensure that the director of budget and analysis develops and
implements formal written procedures to provide for continuous monitoring of the agency’s
control environment related to the budget process to determine whether proper internal control
activities are established, are sufficient in number, and operating effectively.

12. That the chief financial officer ensure that the director of budget and analysis formalizes the
process within the Office of Budget and Analysis for analyzing and advising on Request for
Agency Resources and retain the results and conclusions of all analyses together with the
associated Request for Agency Resources.




Final Audit Report: Peace Corps’ Budget Formulation Process                                         22
APPENDIX A

                    OBJECTIVE, SCOPE, AND METHODOLOGY
Our primary objective was to determine if the Peace Corps has an effective and efficient process
in place for formulating and executing its budget. An additional objective was to determine if the
agency was fully complying with applicable federal laws and regulations and Peace Corps policy
governing the budget process. We also announced we would assess whether the budget process
used is meeting agency needs in terms of funding its mission requirements. Further, we reviewed
internal control as it related to our objectives.

Our audit conclusions are based on information from three sources: (1) document and data
analysis, (2) interviews, and (3) direct observation. Our audits are conducted in accordance with
the government auditing standards prescribed by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

After performing preliminary audit work it was decided to focus our scope on budget
formulation and related compliance with laws and regulations. However, we did review a
selected aspect of budget execution regarding tracking and following up on the status of
approved Request for Agency Resources.

The audit was initially announced in June 2010. We suspended this audit project on November 1,
2010 due to resourcing constraints and other OIG priority work being performed during this
period. The audit was re-announced in January 2011 and audit work was resumed and performed
through September 2011.

To perform the audit we examined how the budget was formulated; whether related policies,
procedures, and federal governance were followed; reviewed key documentation associated with
the budget; and met with Peace Corps personnel that are responsible for carrying out budgeting
activities. We also obtained feedback from agency managers on how well the budget process
serves their needs in supporting Peace Corps’ mission. Further, earlier plans for growth and
expansion have been impacted by current and anticipated future budget reductions. As a result
we took the budget reductions into consideration in performing the audit. We did not rely on
computer-processed data in the performance of most of our audit work. However, limited data
kept in the agency’s Hyperion system was requested to enable us to assess the type of data stored
in the budget software application.




Final Audit Report: Peace Corps’ Budget Formulation Process                                    23
APPENDIX B

              FEDERAL BUDGET FORMULATION TIME TABLE
OMB Circular No. A-11 provides the following table depicting major steps in the budget
formulation process.

OMB issues Spring planning guidance to Executive Branch agencies for the upcoming budget.        Spring
The OMB Director issues a letter to the head of each agency providing policy guidance for the
agency's budget request. Absent more specific guidance, the outyear estimates included in the
previous budget serve as a starting point for the next budget. This begins the process of
formulating the budget the President will submit the following February.
OMB and the Executive Branch agencies discuss budget issues and options. OMB works with          Spring and
the agencies to:                                                                                 Summer
•        Identify major issues for the upcoming budget;
•        Develop and analyze options for the upcoming Fall review; and
•        Plan for the analysis of issues that will need decisions in the future.
OMB issues Circular No. A–11 to all Federal agencies. This Circular provides detailed            July
instructions for submitting budget data and materials.
Executive Branch agencies (except those not subject to Executive Branch review) make budget      September*
submissions. See section 25.

Fiscal year begins. The just completed budget cycle focused on this fiscal year. It was the      October 1
"budget year" in that cycle and is the "current year" in this cycle.
OMB conducts its Fall review. OMB staff analyzes agency budget proposals in light of             October–
Presidential priorities, program performance, and budget constraints. They raise issues and      November
present options to the Director and other OMB policy officials for their decisions.
OMB briefs the President and senior advisors on proposed budget policies. The OMB Director       Late November
recommends a complete set of budget proposals to the President after OMB has reviewed all
agency requests and considered overall budget policies.
Passback. OMB usually informs all Executive Branch agencies at the same time about the           Late November
decisions on their budget requests.
All agencies, including Legislative and Judicial Branch agencies, enter MAX computer data and    Late November
submit print materials and additional data. This process begins immediately after passback and   to early January
continues until OMB must "lock" agencies out of the database in order to meet the printing       *
deadline.
                                                                                                 December *
Executive Branch agencies may appeal to OMB and the President. An agency head may ask
OMB to reverse or modify certain decisions. In most cases, OMB and the agency head resolve
such issues and, if not, work together to present them to the President for a decision.
Agencies prepare and OMB reviews congressional budget justification materials. Agencies          January
prepare the budget justification materials they need to explain their budget requests to the
responsible congressional subcommittees.
President transmits the budget to the Congress.                                                  First Monday in
                                                                                                 February
*OMB provides specific deadlines for this activity.



Final Audit Report: Peace Corps’ Budget Formulation Process                                                   24
APPENDIX C

                BUDGET REQUESTS PRESENTED WITH GOALS




                           The Peace Corps’ Congressional Budget Justification, FY 2003




Final Audit Report: Peace Corps’ Budget Formulation Process                               25
APPENDIX C




                        The Peace Corps’ Performance and Accountability Report, FY 2004




Final Audit Report: Peace Corps’ Budget Formulation Process                               26
 APPENDIX D

                                      RISK ASSESSMENT RATING
Business Area                      Sub-Area                                                  Date

Preparer                                                              Title

Please check “Yes” or “No” for each of the following questions. Complete “Comments” in response to a question or as needed for
clarification.
                         Risk Assessment Questions                     Yes     No                         Comments
Relates to the nature of programs, transactions, and accounts and whether the area had significant audit findings.
                Has the functional area been free of cited material
           1.   weaknesses within the last five years (by
                Congress, GAO, OIG, an independent audit) that
                have not been fully corrected and verified?
                Has the functional area been free of findings that
           2.   they are not in compliance with laws and
                regulations?
                Has the functional area been free of a reported
           3.   potential or actual loss of $75,000 or more in a
                fiscal year due to weaknesses?
                Does the functional area have clearly stated and
                current policies and operating procedures (e.g.,
           4.   appropriate separation of duties, SOPs, delegation
                of authority, systematically organized and updated
                in manuals or handbooks)?
                Is the nature of the work in your area other than
           5.
                inherently High risk?
Generally considers security programs, planning, and management, access controls, application software development and change
controls, system software, segregation of duties, and service continuity.
                Does the functional area have effective
                documented financial and operating controls or
           6.   checks and balances over assets and information to
                protect against fraud, waste, abuse,
                mismanagement and conflicts of interest?
                Does the functional area have relevant and
                periodic management information system data,
                reports and procedures to adequately manage,
           7.
                monitor and evaluate performance of significant
                activities and are mgmt controls integrated into
                systems?
                Does the functional area have trained and
           8.   competent personnel to properly manage the
                activity (including knowledge and training related
                to internal controls)?
                                   Rating Key                         Total “No”      Rating =
                                   2 or fewer No = Low Risk           responses=
Assign Rating of Low,
                                   3 No = Medium Risk
Medium, High, or Inherent
                                   4 or more No = High Risk
High Risk
                                     OR
                                   Inherent High Risk
OVERALL ASSESSMENT
Do the weaknesses in your
area rise to the level of being
reported to OMB and                  Report Weaknesses to OMB                         Monitor and control weaknesses within the Peace
Congress or internally               and Congress? (Yes or No)                        Corps? (Yes or No)
monitored and controlled by
the agency?
                                   Circular 123-A Implementation Guide (2005), NIH materials



 Final Audit Report: Peace Corps’ Budget Formulation Process                                                                 27
APPENDIX E

                                        LIST OF ACRONYMS
   AGA                              Association of Government Accountants
   CBJ                              Congressional Budget Justification
   CFO                              Chief Financial Officer
   FASAB                            Federal Accounting Standards Advisory Board
   FMFIA                            Federal Managers Financial Integrity Act
   FY                               Fiscal Year
   GAO                              Government Accountability Office
   GPRA                             Government Performance and Results Act
   IPBS                             Integrated Planning and Budgeting System
   MS                               Manual Section
   OCFO                             Office of the Chief Financial Officer
   OIG                              Office of Inspector General
   OMB                              Office of Management and Budget
   OMS                              Office of Medical Services
   OSIRP                            Office of Strategic Information, Research and Planning
   PAR                              Performance and Accountability Report
   RAR                              Request for Agency Resources
   SFFAS                            Statement of Federal Financial Accounting Standards




Final Audit Report: Peace Corps’ Budget Formulation Process                                  28
APPENDIX F

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps’ Budget Formulation Process   29
APPENDIX G

                                           OIG COMMENTS
Of the 12 recommendations made in our report Peace Corps management concurred with 11 and
non-concurred with one. In their response, management described actions they are taking or
intend to take to address the issues that prompted each of our recommendations. Management’s
corrective actions are ongoing and as a result none of the 12 recommendations can be closed at
this time. We wish to note that when we close recommendations, we are not certifying that the
agency has taken these actions, nor that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

In our opinion Peace Corps management’s comments were generally responsive however, we
disagree with the agency’s response relating to its basis for not concurring with recommendation
2. We agree that management must consider its current capabilities, collaborate with OMB, and
implement cost-effective linkage between goals and resources. In addition, we appreciate that
management has agreed to improve the transparency of the RAR process and documents its
controls over the budget formulation process.

We disagree with management’s basis for not concurring with recommendation 2. Management
contended that “… there is nothing in GPRA-MA that requires the agency to use the ability to
link performance goals to the resources....” However, it has been a requirement since GPRA was
passed into law in 1993 that performance planning identify the resources necessary to meet an
agency’s performance goals. The original act required federal agencies to, “briefly describe the
operational processes, skills and technology, and the human, capital, information, or other
resources required to meet the performance goals (see Section 1115, Performance Plans (a)
(3)).” This same requirement was included in the GPRA Modernization Act, Section 1115(b),
Agency Performance Plans (5)(A) and OMB Circular No. A-11 (August 2011), Section 220.7, III.
Strategies and Supporting Analysis.

We disagree with management’s statement included in their response that they do “. . . not
necessarily agree with the conclusion reached by OIG in the report that the agency’s budget
formulation process does not fully comply with applicable federal laws and regulations. The
agency does, however, believe that the Peace Corps can improve its performance budgeting . . .”
Full compliance would identify resources for strategic and performance goals and ensure
reporting deadlines are always met. As discussed in our report, there are a number of steps that
will need to be taken to become fully compliant with the GPRA Modernization Act and OMB
Circular No. A-11.

The recommendations will remain open pending confirmation that sufficient evidence has been
received that appropriate corrective actions have been taken to remediate the deficient conditions
found. Such evidence must include the following:

         Recommendation 1. Issuance of the agency’s performance and strategic plans; OMB and
         Congressional budget submissions; and annual performance report that present budget


Final Audit Report: Peace Corps’ Budget Formulation Process                                    39
APPENDIX G
         and performance data that is aligned with Peace Corps’ strategic and performance goals
         as defined by the requirements contained in the GPRA Modernization Act and OMB
         Circular No. A-11.

         Recommendation 2. As discussed above we do not agree with management’s basis for
         not concurring with this recommendation. Compliance with the applicable laws and
         regulations will require that agency management link, to the extent possible, the
         necessary resources to meet both its strategic and performance goals. Remediation may
         be accomplished through demonstrating that such linkage has been made as documented
         in Peace Corps performance and strategic plans and other related budget and planning
         documentation. We do not recommend or suggest in our findings and recommendations
         that the agency should “revert” to a greater use of output based goals. We welcome
         agency efforts to move towards useful outcome based goals and measures. Such effort is
         certainly not incompatible with establishing linkages to needed resources. Management is
         encouraged to further discuss this recommendation with OIG.

         Recommendations 3 and 4. Preparation of a formal review and clearance procedure as
         described in management’s comments that has been incorporated into policy and
         officially implemented.

         Recommendations 5, 6, and 7. Preparation of a RAR Review Committee Charter that has
         been implemented into Peace Corps policy. Also, an updated and implemented Peace
         Corps Manual section 702 and issuance of a separate CFO Bulletin on RARs.

         Recommendation 8. We agree that written certification provided by office heads to
         OCFO would increase oversight of the use of RAR funding. However, we do not agree
         that this procedure alone would be an adequate control. Offices heads must be
         accountable to their management and should be responsible for tracking and reporting
         RAR fund status and accomplishments to their supervisors to ensure it is efficiently used
         for intended purposes. Such procedures must be formally documented and implemented
         into policy.

         Recommendations 9 and 10. Preparation and formal implementation of a “Budget
         Process Risk Assessment and Mitigation Procedures Memorandum” as described in
         management’s comments.

         Recommendation 11. In addition to documents to close recommendation 9, we request
         the review procedures and compilation of the annual report of all budget system
         users/roles. The review procedures and annual report must be memorialized in policy or a
         CFO Bulletin.

         Recommendation 12. Preparation of a formal process related to the Office Budget and
         Analysis’ review of RARs as described in management’s response to recommendation
         12. This process must be documented and implemented into policy.




Final Audit Report: Peace Corps’ Budget Formulation Process                                     40
APPENDIX H

                    AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                         Expert Consultant Jeffrey Lee and Lead Auditor Hal Nanavati
                                         performed the audit.




                                         Bradley Grubb
                                         Assistant Inspector General for Audit



OIG CONTACT                              If you wish to comment on the quality or usefulness of this
                                         report to help us strengthen our product, please email Assistant
                                         Inspector General for Audit Bradley Grubb at
                                         bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps’ Budget Formulation Process                                           41
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                       Contact OIG

                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129

                   Main Office: 202.692.2900
